APPENDIX CONTENTS
Appendix A 
Georgia Supreme Court Order Denying Certiorari: Watkins v State, No.
S20C1071 (Sep. 28, 2020) ....................................................................... 1
Appendix B 
Georgia Court of Appeals Order Denying Reconsideration: Watkins v.
State, No. A19A1853 (March 19, 2019) .................................................. 
Appendix C 
Georgia Court of Appeals Opinion Affirming Conviction
(January 30, 2020) .................................................................................. 
Appendix D
Georgia Superior Court Order Denying Motion for New Trial: State v.
Watkins, No. 16-ER-158-H (Superior Court, Elbert County, Georgia,
March 13, 2019)......................................................................................
Appendix F
Transcript of Motion for New Trial Hearing (February 25, 2019) ...............

SUPREME COURT OF GEORGIA
Case No. S20C1071
September 28, 2020

The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.
MICHAEL LANIER WATKINS v. THE STATE.
The Supreme Court today denied the petition for certiorari
in this case.
All the Justices concur, except McMillian, J., disqualified.

Court of Appeals Case No. A19A1853

SUPREME COURT OF THE STATE OF GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.

, Clerk

APP. 1

Court of Appeals
of the State of Georgia
ATLANTA, March 19, 2020
The Court of Appeals hereby passes the following order
A19A1853. MICHAEL LANIER WATKINS v. THE STATE.

Upon consideration of the APPELLANT'S Motion for Reconsideration in the above styled
case, it is ordered that the motion is hereby DENIED.

Court of Appeals of the State of Georgia
Clerk's Office, Atlanta, March 19, 2020.
I certify that the above is a true extract from the minutes
of the Court of Appeals of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.
, Clerk.

APP. 2

FIFTH DIVISION
MCFADDEN, C. J.,
MCMILLIAN, P. J., and SENIOR APPELLATE JUDGE PHIPPS
NOTICE: Motions for reconsideration must be
physically received in our clerk's office within ten
days of the date of decision to be deemed timely filed.
http://www.gaappeals.us/rules

January 30, 2020
NOT TO BE OFFICIALLY
REPORTED

In the Court of Appeals of Georgia
A19A1853. WATKINS v. THE STATE.
PHIPPS,

Senior Appellate Judge.

After a bench trial, Michael Lanier Watkins was convicted of involuntary
manslaughter via the commission of an unlawful act, as a lesser-included offense of
felony murder. 1 He appeals from the denial of his motion for new trial, arguing that
the evidence was insufficient to support his conviction and that he received
ineffective assistance of counsel. For the following reasons, we affirm.
"On appeal from a bench trial, we view the evidence in favor of the factfinder' s
conclusion, giving due regard to the trial court's opportunity to judge witness
credibility. We no longer presume the defendant is innocent, but only determine if the

1

Watkins was acquitted of malice murder and aggravated assault.

APP. 3

evidence is sufficient to sustain the conviction[]." (Citations and punctuation
omitted.) Landine v. State, 295 Ga. App. 761, 761 (673 SE2d 124) (2009).
Viewed in this light, the evidence at trial established that at around 1:00 a.m.
on June 18, 2013, an officer with the Elbert County sheriffs department responded
to Coldwater Creek in reference to a call that a person had drowned. When the officer
arrived, he made contact with Michael Watkins, the ex-husband of the victim.
Watkins advised the officer that for the past several days, the victim had been
drinking heavily and using prescription drugs, including Ambien. Watkins reported
that at around 12:00 a. m. that morning, the victim wanted to go swimming. The
victim had asked to go to the ''watershed," but Watkins insisted on going to
Coldwater Creek. Watkins testified that when they arrived at the boat ramp, the
victim told him that she was only going to swim to the buoy and back. However, after
she swam approximately fifty feet from the shore, she went under water and never
surfaced again.
Watkins told officers that he attempted to call 911 for assistance, but that his
phone displayed ''No Service." He testified that he then went to a nearby home to get
help, but no one answered the door. He further testified that he then drove to a nearby
residence and had the homeowner call 911. Watkins told the officers that he then
2

APP. 4

returned to the creek, went into the water and attempted to "snag" the victim with a
cane, hoping to rescue her. Although Watkins claimed to have a paralyzing phobia
of water and only entered up to his ankles when he attempted to retrieve the victim,
Watkins' pants were wet up to his waist.
Watkins stated that the victim was an excellent swimmer. Despite this, her
body was found 21 feet from shore in 3 feet of water. The post-mortem toxicology
report indicated the presence of tramadol, Ambien, diazepam and nordiazepam. Her
etyl alcohol level was 0.348 grams per 100 mL, which had to be diluted because the
initial sample was higher than the highest calibrator. The pathologist who conducted
the victim's autopsy concluded that the victim did not show evidence of a recent
injury, but instead died of drowning complicated by "acute [multiple] drug and
alcohol intoxication. A pharmacologist who testified as an expert at trial noted that
because of the "extraordinarily high" levels of alcohol and prescription drugs in her
system, the victim should not have been ambulatory and was ''very, very sedated."
The pharmacologist testified that anyone with these levels of drugs and alcohol in
their system would "be almost impossible to rouse[.]"
Evidence of prior difficulties was introduced at trial, including evidence that
several months before her drowning, the victim was shot in the back with a small

3

APP. 5

caliber firearm in an incident where the perpetrator was never identified, but Watkins
was the only other person present. Six days after the victim's death, Watkins
attempted to probate a will written by the victim in 2004 which would have made him
the beneficiary of all of her property.
Subsequent to being arrested, Watkins confessed to an inmate in the Elbert
County Jail that he had held the victim under water at the end of the boat ramp until
she drowned.
Watkins was charged with malice murder, felony murder, and aggravated
assault. After the bench trial, the trial court found him not guilty of malice murder or
aggravated assault. It did, however, find him guilty of involuntary manslaughter as
a lesser-included offense of felony murder.
1. Watkins argues that the evidence at trial was insufficient to authorize the
trial court, as fact finder, to conclude that he was guilty of involuntary manslaughter
during the commission of an unlawful act because there was no proof that Watkins'
actions were the proximate cause of the victim's death and because he did not commit
an unlawful act. We find no error.
A person commits the offense of involuntary manslaughter in the commission
of an unlawful act when he "causes the death of another human being without any
4

APP. 6

intention to do so by the commission of an unlawful act other than a felony." OCGA

§ 16-5-3 (a). "The essential elements of the offense of involuntary manslaughter in
the commission of an unlawful act are 'first, intent to commit the unlawful act; and
secondly, the killing of a human being without having so intended but as the

proximate result of such intended unlawful act."' (Citation and punctuation omitted;
emphasis in original.) Scraders v. State, 263 Ga. App. 754 (589 SE2d 315) (2003).
Count 2 of the indictment, alleging felony murder, incorporated by reference
aggravated assault, as alleged in Count 3 of the indictment. Count 3 accused Watkins
with aggravated assault because he "did unlawfully make an assault upon the person
of Meredith Leigh Watkins with water, an instrument which when used offensively
against a person is likely to result in serious bodily injury, by placing said person in
a creek while said person was so intoxicated that she was incapable of swimming[.]"
(Emphasis supplied.)
The trial court found Watkins to be guilty of the lesser-included offense of
"felony involuntary manslaughter [for] causing a death by misdemeanor reckless
conduct." "Reckless conduct is an unlawful act in this State and constitutes a
misdemeanor offense." Bohannon, 230 Ga. App. 320 (1) (b) (498 SE2d 316) (1998).
A person commits the offense of reckless conduct when that person "causes bodily
5

APP. 7

harm to or endangers the bodily safety of another person by consciously disregarding
a substantial and unjustifiable risk that his act or omission will cause harm or
endanger the safety of the person, and the disregard constitutes a gross deviation from
the standard of care which a reasonable person would exercise in the situation[.]"
OCGA § 16-5-60. See Banks v. State, 329 Ga. App. 174, 176 (2) (764 SE2d 187)
(2014) ("If a death occurs as the result of reckless conduct, a defendant is guilty of
involuntary manslaughter") (punctuation and footnote omitted); Bohannon v. State,
230 Ga. App. at 830 (2) (b) (the evidence supported the conviction of involuntary
manslaughter based upon reckless conduct when the mother consciously disregarded
the safety of a baby by placing the infant in bed with two intoxicated adults that had
been previously warned about the dangers of drinking while caring for an infant).
Although Watkins argues that the evidence was insufficient to sustain his
conviction because there was no evidence to show that his actions were the proximate
cause of the victim's death or rose to the level of reckless conduct, the evidence does
not support this conclusion. Contrary to Watkins' arguments, the indictment does not
allege that he simply allowed the intoxicated victim to go for a swim. Rather, the
indictment alleges that Watkins placed the victim in the creek while she was so
intoxicated that she was incapable of swimming. By doing so, Watkins endangered
6

APP. 8

the bodily safety of the victim by consciously disregarding a substantial and
unjustifiable risk that his act would endanger her safety, and this disregard constituted
a gross deviation from the standard of care which a reasonable person would exercise.
See OCGA § 16-5-60; Turnipseedv. State, 186 Ga. App. 278, 279-280 (2) (367 SE2d
259) (1988) (physical precedent only) (evidence was sufficient to establish that
defendant engaged in reckless conduct by keeping unsecured pitbulls that he had been
warned were dangerous, thus supporting his conviction for felony involuntary
manslaughter based on the underlying misdemeanor of reckless conduct). Therefore,
the evidence supports the factfinder' s conclusion that by placing the victim in the
creek despite the fact that the alcohol and drug levels in her system meant she would
have been unresponsive, he committed an unlawful act other than a felony which
proximately caused the victim's death.
2. Watkins next argues that his trial counsel rendered ineffective assistance for
arguing for the lesser-included offense of involuntary manslaughter without his
informed consent. We find no reversible error.
To prevail on his claim of ineffective assistance of counsel, Watkins must show
that counsel's performance was deficient and that the deficient
performance so prejudiced the defendant that there is a reasonable

7

APP. 9

likelihood that, but for counsel's errors, the outcome of the trial would
have been different. While the test imposed by Strickland is not
impossible to meet, the burden is a heavy one. For [Watkins] to satisfy
the first requirement of Strickland, he has to overcome the strong
presumption that his trial counsel's performance was within the wide
range of reasonable professional conduct, and that counsel's decisions
were the result ofreasonable professional judgment. The reasonableness
of counsel's conduct must be evaluated from counsel's perspective at
the time of trial and under the particular circumstances of the case, and
decisions regarding trial tactics and strategy may form the basis for an
ineffectiveness claim only if they were so patently unreasonable that no
competent attorney would have followed such a course.
(Citations and punctuation omitted.) Blackwell v. State, 302 Ga. 820, 824 (3) (809
SE2d 727) (2018), citing Strickland v. Washington, 466 U. S. 668 (104 SCt 2052, 80
LE2d 674) (1984).
Watkins contends that the right to insist that counsel refrain from admitting
guilt was recently pronounced in a new rule of constitutional law in McCoy v.
Louisiana, _ V. S. _ (138 S. Ct. 1500, 200 LE2d 821) (2018). In McCoy, the
Supreme Court held that in a capital murder case, a defense attorney who overrides
a defendant's insistence that counsel refrain from admitting the defendant's guilt
violates the defendant's sixth amendment rights. McCoy, 13 8 S. Ct. at 1508-1509 (II)

8

APP. 10

(A). However, we reject this argument because "the rule pronounced in McCoy
appears to apply only to capital cases, and [Watkins'] case is not a capital case." In

re Brown, 2019 U.S. App. Lexis 14798 at *2 (11th Cir., decided May 17, 2019).
"An attorney's decision about which defense to present is a question of trial
strategy... [T]he failure to consult fully with the accused about whether to pursue an
all-or-nothing defense or request a jury charge on a lesser included offense should be
rigorously scrutinized, but that such failure does not constitute ineffective assistance
of counsel in every case as a matter of law." Blackwell, 302 Ga. at 825 (3). In the
instant case, defense counsel testified at the motion for new trial that he consulted
with Watkins regarding trial strategy and counsel's intent to request the trial court to
consider the lesser-included offense of involuntary manslaughter as part of trial
strategy. Despite Watkins' assertion to the contrary, his trial counsel testified that
Watkins understood and agreed with this approach. "It is the function of the trial
court at the hearing on the motion for new trial to determine witness credibility and
to resolve any conflicts in the testimony." Mobley v. State, 264 Ga. 854, 856 (452
SE2d 500) (1995).

9

APP. 11

The trial court did not err in concluding that Watkins' s trial counsel did not render
ineffective assistance of counsel.

Judgment affirmed. McFadden, C. J., and McMillian, P. J., concur.

10

APP. 12

I

.

FILED <~; RECURDED
IN T HE SUPE R IOR C OUR T OF E L B E R T C OUNT Y
S T AT E O F G E O R G IA
ZUIBPMRI3 EH 8251,

STATE OF GEORGIA,

LEIGH vs SMRRETT
CLERK
ELBERT SUPERIOR COURT

*
*

_VS_

* CASENO. 16ER158H
*

MICHAEL LANIER WATKINS,
DEFENDANT.

*
*

ORDER DENYING MOTION FOR NEW TRIAL
The above styled. case having come before this Court on a Motion for New
Trial by Michael Lanier Watkins (hereafter, the "Defendant"), by and through
counsel, and a hearing conducted on the same on February 25, 2019, this Court,
after hearing and considering all evidence, testimony, as well as considering any
conflicts in the evidence, the credibility of witnesses, the weight of the evidence,
and other relevant matters presented to or made known to this Court, and after
considering the argument of counsel, the Court issues the following ruling:
FACTUAL BASIS
The Defendant was tried before judge alone and found guilty of the offense
of Involuntary Manslaughter as a lesser included offense of Count 2, Felony
Murder.
Viewed in the light most favorable to the verdict, the evidence adduced at
trial showed that on Tuesday, June 18, 2013, the Elbert CountySheriff7s office
responded yo Cold Water Creek in Elbert County, Georgia, in reference to a
drowning victim. Upon arrival at Cold Water Creek, law enforcement met with
Michael Watldns, the ex-husband of the victim. Michael Watldns advised that for
the past several days Meredith Watldns, the victim, had been drinldng heavily and
using prescription drugs. Michael Watldns reported that around 12:00 a.m. that
morning, Meredith Watkins wanted to go swimming. Meredith Watkins wanted to
1

APP. 13

Page 97 of 114

r

go to the water shed, but Michael Watkins insisted on going to Cold Water Creek.
Upon arrival, at the boat ramp, Meredith Watldns allegedly told Michael Watkins
that she was only going to swim out to the buoy and back. After Meredith Watkins
swam only approximately fifty feet from the shore, she went under water and never
surfaced again.
Michael Watkins stated that he attempted to contact the Elbert County 911
for assistance, howeverhe claimed his phone displayed No Sewice. Michael
Watkins claimed he went to a nearby home and attempted to get assistance, but no
one would answer. He then drove to Johnny Smiths residence and had him call
911. The Defendant traveled back to Cold Water Creek, entered the creek, and
attempted to snag Meredith Watldns with a cane, claiming that he decided that
\

perhaps he could rescue her. The Defendant claimed he was terrified of water and
could not bring himself to enter the creek, however witnesses testified he was wet
up to waist, and that one sleeve was wet to the shoulder.
The body of Meredith Watldns was found 21 feet from shore in 3 feet of
water. She was face down with her arms crossed over her chest. Her glasses were
still on her face. The area to her body from the shore is consistently a depth of only
3 feet.

`

Her toxicology indicated the presence of tramadol, 0. 14 mg/L, zolpidem
(Ambien), 0. 19 mg/L, diazepam and nordiazepam (both lower than the lowest
calibrator of 100mcg/L). Her ethyl alcohol was 0.348 grams per 100 mL, which
had to be diluted because the initial sample was higher than the highest calibrator.
There was no indication of recent injury in the autopsy.
The pathologist concluded Meredith Watkins died of drowning complicated
by acute multiple drug and alcohol intoxication.
Meredith Watldns was shot in the back with a small caliber firearm several
months (October 2012) before her drowning in an incident for which the
2

APP. 14

Page 98 of 114

J

perpetrator was never identified, but Michael Watkins was the only other person
present. Their residence contained many small caliber weapons. Six days after
Meredith's death, Michael Watkins attempted to probate a will written by Meredith
Watkins in 2004 making Michael Watkins the beneficiary of all of her property,
including 5 acres of real property.

.

Subsequent to being arrested, Michael Watkins confessed to an inmate in the
Elbert County Jail. The information provided by the jail house informant is
consistent with the scene and with information regarding Meredith that only the
Defendant would know.
Counsel for the Defendant argued that the evidence was insufficient to
support a conviction for murder, and that if the Defendant were guilty of anything,
it was Involuntary Manslaughter predicated on the conduct set forth in the
Aggravated Assault count.
This Court found the Defendant guilty of Involuntary Manslaughter.
The Defendant then filed the current action, a Motion for New Trial,
enumerating errors by this Court. The Defendant's enumerations of error are
Sufficiency of the Evidence, error in finding the Defendant guilty of the lesser
included offense of Involuntary Manslaughter (though trial counsel urged this
outcome), and urges this Court to act as the 13*h juror, in a case in which there was
not jury.
Each of the Defendant's enumerations of error are addressed individually
below.

.
ANALYSIS

1. SUFFICIENCY OF THE EVIDENCE (enumerations 1 & 2)
The Defendant asserts that the evidence was insufficient. The evidence
adduced at trial was sufficient to authorize a rational trier of fact to find beyond a
reasonable doubt that the Appellant was guilty of the crimes of which he was
3

APP. 15

Page 99 of 114

convicted.
In Jackson V. Virginia, 443 U.S. 307 (1979), the Supreme Court of the
United States held that when a defendant challenges the sufficiency of the evidence
supporting his criminal conviction, the relevant inquiry is whether after viewing
the evidence in the light most favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime beyond a reasonable doubt.
Furthermore, the Georgia Supreme Court held in Miller V. State, 273 Ga. 83 l, 832,
546 S.E.2d 524, (2001) that as long as there is some competent evidence, even
though contradicted, to support each fact necessary to make out the State's case, the
verdict will be upheld.
The Court, having presided over the trial of this case, and acting as fact
finder, concluded there was sufficient evidence to support a conviction for the
offense of Involuntary Manslaughter as a lesser included offense of Count 2,
Felony Murder (predicated on Aggravated Assault, which was alleged as follows :
And the Grand jurors aforesaid, in the name and behalf of

the citizens of Georgia, further charge and accuse

MICHAEL

WATKINS

with

the

offense

of

AGGRAVATED ASSAULT (O.C.G.A. 16-5-21) for that

said accused in Elbert County, Georgia, on or about the
18th day of June, 2013, did unlawfully make an assault
upon the person of Meredith Leigh Watkins with water, an
instrument which when used offensively against a person
is likely to result in serious bodily injury, by placing said
person in a creek while said person was so intoxicated that

she was incapable of swimming, contrary to the laws of
said State, the good order, peace and dignity thereof

.

A person commits the offense of involuntary manslaughter in the commission
4

APP. 16

Page 100 of 114

of an unlawful act when he causes the death of another human being without any
intention to do so by the commission of an unlawful act other than a felony.
O.C.G.A. § 16-5-3. A person commits the offense of Reckless Conduct when that
person causes bodily harm to or endangers the bodily safety of another person by
consciously disregarding a substantial and unjustifiable risk that his act or omission
will cause harm or endanger the safety of the other person, and the disregard
constitutes a gross deviation from the Standard of care which a reasonable person
would exercise in the situation is guilty of a misdemeanor. O.C.G.A. § 16-5-60.
As alleged, by the Defendant placing the person of Meredida Watkins in a
creek while said person was so intoxicated that she was incapable of swimming, the
Defendant endangered the bodily safety of Meredith Watkins by consciously
disregarding a substantial and unjustifiable risk that his act would endanger the
safety of Meredith Watkins, and the disregard constituted a gross deviation from the
standard of care which a reasonable person would exercise. Therefore, he committed
an unlawful act, other than a felony, which caused the death of Meredith Watkins.
As such, this enumeration is Without merit, and must be denied.
2. THE LESSER INCLUDED OFFENSE AND INEFFECTIVE
ASSISTANCE OF COUNSEL (énumerations 3 & 4)
The Defendant contends that Involuntary Manslaughter is not a lesser
included offense of murder as alleged in this charging document, and that it was
therefore error for the Court to find the Defendant guilty of Involuntary
Manslaughter.

"An indictment cannot be materially amended after the grand jury has
returned the indictment into court, any subsequent amendment by the trial court or
prosecution that materially affects the indictment is void and cannot serve as the
basis for a conviction." Driggers v. State, 295 Ga. App. 71 l, 717-718 (4) (b) (673
5

APP. 17

Page 101 of 114

SE2d95) (2009). See Ingram V. State, 211 Ga. App. 252, 253 (1) (438 SE2d 708)
(1993); Gentry v. State, 63 Ga. App. 275, 276 (11 SE2d 39) (1940). An
amendment to the indictment can be actual or constructive, "[a] constructive
amendment occurs when the essential elements of the offense contained in the
indictment are altered to broaden the poSsible bases for conviction beyond what is
contained in the indictment" as a result of erroneous jury instructions or a
prosecutor's statements to the jury. (Citations and punctuation omitted.) United
States V. Castro, 89 F3d 1443, 1452-1453 (III) (11th Cir. 1996). See Salahuddin V.
State, 241 Ga. App. 168, 170 (2) (525 SE2d 422) (1999) (physical precedent only),
abrogated on other grounds by Simpson V. State, 277 Ga. 356, 358 (2) (589 SE2d
90) (2003).

|

Significantly, however, an indictment embraces all lesser included offenses
0f the charged offense. Spence V. State, 7 Ga. App. 825, 827 (68 SE 443) (1910).
See OCGA § 16-1-6 ("An accused may be convicted of a crime included in a crime
charged in the indictment or accusation."). An indictment places an accused on
notice that he can be convicted of the crimes expressly charged as well as lesser
crimes that are included in the charged offenses as a matter of law or fact.
Millender v. State, 286 Ga. App. 331, 333 (2) (648 SE2d 777) (2007). Indeed, if an
offense is a lesser included offense as a matter of law or fact, an accused can be
convicted of that offense even if the trial court directs a verdict on the offense
expressly charged in the indictment. See Clarke v. State, 239 Ga. 42, 44 (4) (235
SE2d 524) (1977); Williams V. State, 196 Ga. App. 154, 155-156 (1) (395 SE2d

399) (1990).
The lesser offense of involuntary manslaughter in the commission of an
unlawful act can be included as a matter of fact in the greater offense of murder.
See, e.g., Morris v. State, 310 Ga. App. 126 (2011), Mitchell v. State, 277 Ga.
App. 65, 67, n. 2 (625 SE2d487) (2005). A lesser offense may be included as a
6

APP. 18

Page 102 of 114

matter of fact Lin a greater offense charged in the indictment, if the indictment
alleges the facts necessary to establish the essential elements of the lesser offense,
and if the evidence presented at trial is sufficient to establish that offense.

.

Youmans V. State, 270 Ga. App. 832, 835 (2) (608 SE2d 300) (2004). See Little V.
State, 278 Ga. 425, 428 (4) (603 SE2d 252) (2004); Loren V. State, 268 Ga. 792,
796 (3) (493 SE2d 175) (1997); Heggs V. State, 246 Ga. App. 354, 355-356 (1)
(540 SE2d 643) (2000). Here, the evidence at trial was sufficient to establish the
lesser offense of involuntary manslaughter in the commission of the unlawfUl act
of reckless conduct, as discussed in Paragraph l, above. Thus, the sole issue is
whether the indictment in this case alleged the facts necessary to establish the
essential elements of that lesser offense. Morris v. State, 310 Ga. App. 126 (20l l),
Malone v State, 238 GA. 25 l (1977); Kilpatrick V State 255 Ga. 344 (1986).
Moreover, counsel for the Defendant argued that the Defendant should be
found guilty of this lesser included offense. Any error, therefore, was invited by
counsel as part of his trial strategy, as testified to by trial counsel at the
Defendant's motion for new trial. As the Supreme Court explained in
Cheddersingh v. State, 290 Ga. 680, 682-684 (724 SE2d 366) (2012), affirmative
waiver, which involves the intentional relinquishment or abandonment of a known
right, as opposed to mere forfeiture by failing to obj ect, prevents a finding of plain
error. In Nelson V. State, 325 Ga. App. 819 (2014), Nelson requested that the trial
court instruct the jury on theft by receiving as a lesser included offense of theft by
taldng and participated with the court in crafting the charge that was given. On
appeal, Nelson argued that theft by receiving was not a lesser included offense of
theft by taking, and that, therefore, the trial court committed plain and obvious
error by giving the requested charge beCause he was not separately charged with
that offense, and it was not otherwise included within the allegations of the
charging accusation. In denying this basis for relief, the Court of Appeals cited
7

APP. 19

Page 103 of 114

Bellamy V. State, 312 Ga. App. 899 (2011), stating "[a] party cannot invite error by
requesting a certain jury instnuction, and then complain on appeal that the
instruction, when given, is incorrect." (Citation and punctuation omitted.) Bellamy
v. State, 312 Ga. App. 899, 901 (1) (720 SE2d 323) (2011).
In order to prove ineffective assistance of trial counsel, a Defendant must
show that counsel made errors so serious that he was not functioning as counsel
guaranteed by the sixth amendment, and but for such errors, there is a reasonable
probability that the outcome of the trial would have been different. Strickland v.
Washington, 466 U.S. 668 (1984). There is a strong presumption that counse1's
actions are the result of sound trial strategy, and counsel's actions are judged from
his perspective at the time of trial. Q. at 689. "Judicial scrutiny of counsel's
performance must be highly deferential." Ll. Choices relating to trial strategy made
by counsel after a thorough investigation of law and facts are virtually
unchallengeable, so long as they are not wholly unreasonable. Q. Counsel's
strategic trial decisions in this case were informed by the evidence, and not
unreasonable.
As such, this enumeration is without merit, and must be denied.
CONCLUSION
1. Viewed in the light most favorable to the State, the evidence was sufficient
to warrant the verdict and conviction. Jackson v. Virginia, 443 U. S. 307 (99
SC 2781, 61 LE2d 560) (1979).
2.

The verdict was not against the weight of the evidence. OCGA § 5-5-20

3.

The verdict is not contrary to law`and principles of equity and justice.
OCGA § 5-5-21.

4. The Defendant did not receive constitutionally ineffective assistance of
counsel.
5. No error was committed during the trial of the Defendant's case. Any alleged
8

APP. 20

Page 104 of 114

error did not contribute to the verdict, and is therefore harmless beyond a
reasonable doubt.
Accordingly, the Defendant's Motion for New Trial is hereby DENIED I
s o ORDERED,Ehis

:au day of

9 2019

Hon. Thomas L. Hodge;
Senior Judge, Superior ourt
Northem Judicial Circuit
Order prepared by :
D. Parks White, District Attorney
Northern Judicial Circuit
Georgia State Bar# 753098
P.O. Box247
Elberton, GA 30635
Phone: 706-795-6326, Fax: 706-795-3588
Email: dpwhite@pacga.org

9

APP. 21

Page 105 of 114

I N THE SUPERI OR COURT OF ELBERT COUNTY
STATE OF GEORGI A

STATE OF GEORGI A

)
)

vs l

CASE NO: 2016- ER- 158

)
)

MI CHAEL WATKI NS,

FILED IN OFFICE
CLERK OF ELBERT COUNTY
SUPERIOR COURT

)
)

Def endant

)

02/ 27/ 2019 04: 13 PM

)

LEIGH W . STARRETT, CLERK

EL BERTCOUNTY, GA

T RANSCRI PT OF HEARI NG ON MOT I ON F OR NEW T RI AL

Hear d bef or e t he Honor abl e Thomas L.
J udge of

t he Super i or Cour t s of

Cour t hous e,

45 For es t

Av enue,

Geor gi a,

El ber t on,

Hodges ,

III,

Seni or

i n t he El ber t

Count y

Geor gi a,

on Febr uar y

25, 2019 .

APPEARANCES;
For t he St at e:

MARK P. SMITH, ESQ.
As s i s t ant Di s t r i c t At t or ney
P. O. Box 515
Har t wel l , Geor gi a 3 0 6 4 3

For t he Def endant :

HOWARD ANDERSON, ESQ .
P. O. Box 661
Pendl et on, Sout h Car ol i na

SPEEDY REPORTING, INC.
CAROLMALLORy,CCR/CVR-M
P.0. Box 1942
Athens, Georgia 30603
(706) 353-2049

APP. 22

29670

1
2

THE COURT:

Michael Watkins, motion for new trial.

Is the State ready to proceed?

3

MR. MARK SMITH:

4

THE COURT:

5

MR. ANDERSON »

Yes, Your Honor

Good.

Thank you •

Judge, in speaking with the State, I

6

would like to propose, with the consent of the State to,

7

after we do the brief testimony, to allow a post-hearing

8

briefing instead of oral argument.

9

speeds up the appeal process when I can go ahead and do

I've found that

10

my brief for the Court of Appeals and submit it as my

ll

post-hearing brief because the -- the briefing schedule

12

up in Atlanta is very short •

13

So I would propose that we

if you'd give me 14 days after today to submit a post-

14

hearing brief so they can have 14 days to respond.

15

That's what I would propose, Your Honor

16
17

MR. MARK SMITH:
Your Honor

18

THE COURT:

19

MR. ANDERSON 9

20

THE COURT:

21

MR. ANDERSON:

22
23

State's got no objection to that,

Okay •
A11 right.

Thank you, Judge.

That sounds like a plan.
Okay •

At this time I would call Mr

Wasserman to the stand, please.
[Witness sworn by Mr

Please raise your hand.

Anderson.]

24
25

HARVEY WASSERMAN
2

APP. 23

1

Called as a witness by the State, having first been

2

duly sworn, is examined and testifies as follows:

3

DIRECT EXAMINATION

4 BY MR. ANDERSON 1•
5

Q

Please state your name for the record.

6

A

Harvey Wasserman •

7

Q

Mr. Wasserman, what do you do for a livinq°

8

A

I'm an attorney and currently hold the position of

9 circuit public defender for the Northern Circuit of Georgia.
10

Q

And how long have you been working in this circuit?

ll

A

As an attorney?

12

Q

Yes •

13

A

Since 2002 •

14

Q

Did you have occasion to represent the defendant

15 here today?
16

A

I did.

17

Q

In what context have you represented him?

18

A

In two cases, the one we're here for today where he

19 was charged with, I think, malice and felony -- and felony
20 murder, and another case where he was charged with child
21 molestation.
22

Q

Okay •

For the case involving malice murder and some

23 other related charges, do you recall your -- your trial in
24 that case?
25

A

Yes •

I -- though I haven't looked at the transcript
3

APP. 24

l recently but I -- I have a pretty good general recollection of
2 it.
3

Q

What -- what generally do you remember about the

4 trial, just to orient us?
5

A

Well, factually, Mr. Watkins was charged with

6 deliberately drowning his wife, Meredith, while she was under
7 the influence of drugs and/or alcohol to the extent, according
8 to the State's version, that she was either unconscious or so

9 impaired she couldn't physically resist Mr

Watkins' attempts

10 to drown her.
ll

My discussions with Mr

Watkins he certainly denied doing

12 anything of an intentional nature, but he did admit she wanted
13 to go swimming in the quarry, that she was under the
14 influence, that this was something she regu1ar1y did, and he
15 felt that if he did not take her, she would -- might go and
16 drive on her own, and he thought it was safer for her for him
17 to accompany her there »
18

Q

Do you remember the closing argument that you gave

19 in the case generally?
20

A

Yes »

21

Q

Do you recall whether you asked for a lesser-

22 included in your closing argument?
23

A

I did.

24

Q

And why did you ask for the lesser-included?

25

A

Well, he was charged with felony and malice murder,
4

APP. 25

l both of which carry up to a life sentence or life without
2 parole »

There was -- you know, from the get-go my evaluation

3 of the case there was evidence that could support those
4 theories of the case by the State •

I didn't think, you know,

5 would be a reasonable doubt issue on those.

There was

6 evidence surrounding the circumstances of Meredith's drowning
7 and their relationship and her -- her self-transitional issues
8 and the f act Mr

you know, she drowned in -- in water that

9 was waist high -- that I was concerned, you know, there was
10 certainly a possibility of him being found guilty of a malice
ll or felony murder
12

I thought it was, given her level of intoxication as came

13 out through the autopsy report and my discussions with our
14 expert, it was clear she was under the influence.

You know,

15 my expert was saying because of her -- her life-long
16 addiction, she wou1dn't have been as compromised as somebody
17 who doesn't use drugs regularly.

But I'm an attorney who's

18 come to conclude, even in a bench trial, as this was, you
19 never ever know what's going to happen.
20 reader

I'm not a mind

I didn't know what Judge Hodges was going to

21 conclude, but I thought he was a better option than a jury.
22

And that, I thought, given the f act she was clearly under

23 the influence with, I think, about 3.3 of alcohol, and I
24 forget what, if any, drugs, that a reasonable person could
25 conclude he was reckless or somehow unlawful in taking her
5

APP. 26

l swimming when she was in that condition.

And that he -- he

2 could have, I thought -- most people thought that he should've
3 been able to control her and prevent her from not going
4 swimming.
5

This is not what maybe Mr

Watkins believed about her,

6 but he wasn't deciding his own case.

And so I did ask the

7 judge to consider the lesser of involuntary manslaughter.
8

Q

Having thought about the issue further, do you think

9 that that was a mistake on your part?
10

A

It was a mistake of law because I -- you know, when

ll I had done the research, you know, I -- I had read cases that
12 said that involuntary could be a lesser of -- of felony or
13 malice murder, but I didn't research it full enough to realize
14 to get an involuntary the act that would be the basis of an
15 involuntary had to be some type of lesser act of what was
16 alleged in the malice or felony murder charges.
17 him with pushing her under the water.

Those charged

My involuntary claim

18 was based on him just taking her swimming.

And since that

19 f actual allegation was not part of the malice or felony
20 murders, it really couldn't be seen as a lesser of what was
21 alleged, it was a mistake of law to ask for that.
22

Q

And you didn't ask for that in writing; correct?

23

A

No, it came up, 1 think, in closing.

24

MR. ANDERSON:

No further questions, Judge.

25
6

APP. 27

CROSS-EXAMINATION

1

2 BY MR. MARK SMITH:
3

Q

Af ternoon, Mr

4

A

One time only.

5

Q

Mr. Wasserman, you testified earlier that when you

Wasserman •

6 evaluated the case, you were looking for cer tain things and
7 that you came to the conclusion that it was certainly possible
8 that the jury could find your client guilty beyond a
9 reasonable doubt of the offenses charged; is that correct?
10

A

Yes •

ll

Q

And when, approximately, did you make this

12 determination through your representation of Mr

Watkins?

13

A

Of -- of what°

14

Q

The determination that it was -- it was certainly

15 possible for a jury to reach -- was it during trial or --°
16

A

Oh, no •

No •

No

This -- this was months before

17 trial after reading the complete file that the State had
18 provided in discovery and having a number of discussions with
19 Mr. Watkins, talking to some witnesses.
20

Q

21 with Mr

So you discussed the implications of the evidence
Watkins; that's correct?

22

A

Yes •

23

Q

In any of those discussions, without getting into

24 what was said, did you discuss your research and asking for a
25 lesser-included?
7

APP. 28

1

A

I told him that I thought it was wise, that I was

2 recommending we -- we ask for a lesser-included.

I don't

3 think I went into a legal analysis, just that I thought it
4 would be a -- a good move

•

5

Q

But it was discussed with him?

6

A

Oh, yes

7

Q

And was it discussed with him prior to trial?

8

A

Yes

9

Q

Would it be fair to say that this was a trial

•

»

10 strategy that was used?
ll

A

Yes

12

Q

And did -- did your client ultimately benefit from

»

13 this trial strategy?
14

A

Well, I would have to ask Judge Hodges if I didn't

15 ask for the lesser what his verdict would've been
16 don't know
17

Q

•

So I -- I

9

Was your client ultimately convicted as he was

18 charged?
19

A

20
21

No

He was found guilty of involuntary.

MR. MARK SMITH:

Okay

»

No further questions, Your

Honor

22

MR. ANDERSON

23

THE COURT:

24

THE WITNESS:

25

THE COURT:

9

No redirect, Judge.

Thank you

»

Thank you, Mr

Wasserman l

Thank you, Your Honor

Do you have any further business today?
8

APP. 29

THE WITNESS:

1
2

me, Your Honor

3

THE COURT:

4

MR. ANDERSON

5

Just to help Mr. Magill if he needs

stand briefly.

Okay
9

•

Judge, Mr. Watkins will take the

Please raise your hand.

[Witness is sworn by Mr

6

Anderson ]
•

7
8

MICHAEL WATKINS

9

Called as a witness by the State, having first been

10

duly sworn, is examined and testifies as follows:

ll

DIRECT EXAMINATION

12 BY MR. ANDERSON:
13

Q

Please state your name for the record.

14

A

My name is Michael Watkins.

15

Q

Mr. Watkins, are you the defendant in this case?

16

A

I can't hear you

17

Q

I ' m sorry

18

A

Yes sir

19

Q

And -- and were you represented by Mr. Wasserman at

»

•

Are you the defendant in this case?

20 trial?
21

A

Yes sir

22

Q

At the -- after the close of the evidence and before

23 Mr. Wasserman gave his closing argument, did you and Mr.
24 Wasserman discuss his closing argument as to what it was going
25 to be?
9

APP. 30

1

A

He met with me before the final part of the trial,

2 if that's what you're asking me
3

Q

4

A

5

Q

And
and we talked.
And did you talk about whether he was going to ask

6 for a lesser-included offense?
7

A

No, he told me he wanted to do that and I told him

8 not to do that.
MR. ANDERSON:

9

No further questions, Judge.

10

CROSS-EXAMINATION

ll

12 BY MR. MARK SMITH:
13

Q

Mr. Watkins, you testified that Mr. Wasserman,

14 before his closing argument, mentioned a lesser-included

15 offense to you; is that correct?
16

A

He mentioned it.

17

Q

Did he mention

18

A

He asked me did I

19

Q

20

A

What?

21

Q

Did he mention how it might benefit you in any way?

22

A

No, he just mentioned that he would like for me to

how it would benefit you in any way?

23 do that and I said no »
24

Q

Okay •

Did he bring this up with you at any point in

25 time prior to closing?
10

APP. 31

1

A

Yes

On our second meeting when I was in the Elbert

•

2 County Jail around August 10th, maybe

»

3

Q

Okay

4

A

But during that time he also wanted me to do

•

5 something called a blind plea deal and I said no

»

And I said

6 don't ever mention it again.
7

Q

And Mr. Watkins, were you ultimately convicted of

8 the offenses that you were charged for?
9

A

No.

10

Q

And did you ultimately receive a lesser sentence

ll than you would've gotten had you been convicted of the
12 offenses charged?
13

A

Could you ask me that in a -- could you rephrase

14 that question, please?
15

Q

Yes

•

The -- the penalties for the offenses you were

16 charged carry up to a life sentence.
17

A

I know that.

18

Q

So you did not receive a life sentence, did you?

19

A

No

20

Q

So you benefitted from Mr

Wasserman's asking for a

21 lesser-included?
22

A

No

23

Q

You didn't?

24

A

No.

I ' m innocent

•

My God knows that I'm innocent,

25 and I just don't believe there was enough evidence for the
11

APP. 32

l State to make its case

Because there was no witness

2 testimony, there was no DNA testimony, there was no evidence
3 that I had done anything wrong except drive my wife to a lake.
4 And that's not illegal to drive somebody to a lake.
5

MR. MARK SMITH:

6

MR. ANDERSON:

7

THE COURT:

8

MR. ANDERSON:

9

10
ll
12
13
14
15
16
17
18

Okay?

No further questions, Your Honor
No redirect, Your Honor

can come d own

You

And no further evidence from the

defense, Your Honor
THE COURT:

All right.

Guess it would be unusual,

but does the State wish to put up anything?
MR. MARK SMITH:

No, Your Honor

State has no

witnesses.
THE COURT:

All right.

You wanted 14 days »

This is

Monday the 25th.
MR. ANDERSON:

So Judge, I show to serve my brief by

the 11th.
THE COURT:

Okay, defense brief by March 11th •

And

19

you were willing to give the State an additional 14 days

20

from that.

21
22

MR. MARK SMITH:

Which I show would be the 25th,

Your Honor •

23

THE COURT:

24

MR. ANDERSON:

25

THE COURT:

March 25th.

Okay »

That'll work, Your Honor

We're agreed on that'
12

APP. 33

1

MR. MARK SMITH:

Yes, Your Honor.

2

THE COURT:

3

[Proceeding is concluded.]

Okay »

4

13

APP. 34

CERTIFICATE
STATE OF GEORGIA
COUNTY OF ATHENS-CLARKE
I, Carol Mallory, Certified Verbatim Reporter, Certified Court
Reporter, B-2159, hereby certify that the foregoing pages numbered
2 through 13 constitute a true, complete, and accurate transcript
of the Hearing on Motion for New Trial in the case of State of
Georgia vs. Michael Watkins, heard before the Honorable Thomas L
Hodges, III, Judge of the Superior Courts of Georgia in Elbert
County Case Number 2016-ER-158, taken down by me and transcribed
under my supervision to the best of my ability.
I further certif y that I am a disinterested party to this
action and that I am neither of kin nor counsel to any of the
parties hereto.
This cer tification is expressly withdrawn and denied upon
disassembly, photocopying, or duplication in any manner or upon
certification of the foregoing transcript or any part thereof by
any person or entity other than by me.

This certification is

f ur t her ex pr es s l y wi t hdr awn and deni ed abs ent my or i gi nal s i gnat ur e
and original seal appearing hereon below
In witness whereof, I hereby affix my hand on this the
27th

day of

Fe b r u a r y

/

2019 ¢

Carol Mallory, CVR-M/CCR-B-2159

14

APP. 35

